No. _____

In the Supreme Court of the United States
___________

RAHEEM JOHNSON,

Petitioner,

v.
COMMONWEALTH OF VIRGINIA,
_____________

Respondent.

APPLICATION FOR AN EXTENSION OF TIME
TO FILE A PETITION FOR A WRIT OF
CERTIORARI
_____________

Elliott Schulder
Counsel of Record
Shadman Zaman
Morgan Lewis
COVINGTON & BURLING LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
eschulder@cov.com
(202) 662-6000
November 1, 2019

Counsel for Petitioner

To the Honorable John G. Roberts, Chief Justice of the Supreme
Court of the United States and Circuit Justice for the Fourth Circuit:
Petitioner Raheem Johnson is a prisoner serving a life sentence for a
crime he committed as a juvenile. He respectfully requests, under Rule
13.5 of the Rules of this Court, an extension of sixty days, to and including
January 13, 2020, within which to file a petition for a writ of certiorari to
review the order of the Supreme Court of Virginia denying Johnson’s
appeal of the dismissal of his petition for a writ of habeas corpus. The state
Supreme Court’s order denying his appeal was entered on August 16, 2019.
A copy of the order is attached.
Unless extended, the time for filing a petition for a writ of certiorari
will expire on November 14, 2019. Johnson proceeded pro se in his state
habeas proceedings, and undersigned counsel entered into an attorney-client
relationship with him on October 16, 2019. The extension is essential for
counsel to meet and confer with Petitioner, to review the record of the case,
and to conduct the research and drafting necessary to prepare the petition.
Respondent will not be prejudiced by the extension.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
This application is timely because it has been filed more than ten days prior
to the date on which the time for filing the petition is to expire.
This case presents an important question regarding whether an
indigent defendant seeking access to a mental health expert to assist in the
sentencing phase of his defense is denied due process where a state court
requires the defendant to show a “particularized need” for such assistance
in addition to satisfying the three threshold criteria established in Ake v.
Oklahoma, 470 U.S. 68, 83 (1985). In the proceedings below, the Supreme
Court of Virginia held that the trial court’s denial of Petitioner’s request for

a mental health expert to present evidence about Johnson’s brain
development for purposes of sentencing was appropriate, not because
Petitioner failed to satisfy the Ake criteria, but because he failed to show, in
addition, a particularized need for such assistance.

Johnson v.

Commonwealth, 292 Va. 772, 775 (2016).
After this Court, in McWilliams v. Dunn, 137 S. Ct. 1790, 1801
(2017), affirmed that Ake established the only criteria an indigent defendant
seeking mental health assistance must meet, Petitioner filed a petition for a
writ of habeas corpus in Virginia state court challenging the trial court’s
denial of Petitioner’s request for a mental health expert at sentencing. The
state court denied relief, and the Virginia Supreme Court summarily denied
Petitioner’s appeal, holding that it found no reversible error by the state
court.
Wherefore, Petitioner respectfully requests that an order be entered
extending the time to petition for certiorari to and including January 13,
2020.
Respectfully submitted,
November 1, 2019

/s/ Elliott Schulder_______________
Elliott Schulder
Counsel of Record
Shadman Zaman
Morgan Lewis
COVINGTON & BURLING LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
eschulder@cov.com
(202) 662-6000

Counsel for Petitioner

-2-

IN THE SUPREME COURT OF THE UNITED STATES
No. ______
Raheem Johnson
Petitioner,
v.
Commonwealth of Virginia,
Respondent.
_____________

CERTIFICATE OF SERVICE
_____________

I, Elliott Schulder, counsel for Raheem Johnson, hereby certify that on this
1st day of November, 2019, I caused three copies of the Application for an
Extension of Time to File a Petition for a Writ of Certiorari to be served by
overnight delivery on the following counsel:
Donald E. Jeffrey, III
Office of the Attorney General
202 North Ninth Street
Richmond, VA 23219
(804) 786-2071
djeffrey@oag.state.va.us
Counsel for Respondent
I further certify that all parties required to be served have been served.
/s/ Elliott Schulder______
Elliott Schulder
Covington & Burling LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
eschulder@cov.com
(202) 662-6000
Counsel for Petitioner

-3-

